     Department of Homeland Security

     2IÀFHRI,QVSHFWRU*HQHUDO


 Information Technology Management Letter for the
 Transportation Security Administration Component
  of the FY 2013 Department of Homeland Security
              Financial Statement Audit




OIG-14-97                                 May 2014

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov


 
                                     May 28, 2014 
 
 
MEMORANDUM FOR:              Stephen Rice 
                             Chief Information Officer 
                             Transportation Security Administration 
 
                             David Nicholson  
                             Chief Financial Officer 
                             Transportation Security Administration 
 
FROM:                        Richard Harsche 
                             Acting Assistant Inspector General 
                             Office of Information Technology Audits 
 
SUBJECT:                     Information Technology Management Letter for the 
                             Transportation Security Administration Component of the 
                             FY 2013 Department of Homeland Security Financial 
                             Statement Audit 
 
Attached for your information is our final report, Information Technology Management 
Letter for the Transportation Security Administration of the FY 2013 Department of 
Homeland Security Financial Statement Audit. This report contains comments and 
recommendations related to information technology internal control deficiencies that 
were not required to be reported in the Independent Auditors’ Report.  
 
We contracted with the independent public accounting firm KPMG LLP (KPMG) to 
conduct the audit of Department of Homeland Security fiscal year 2013 consolidated 
financial statements. The contract required that KPMG perform its audit according to 
generally accepted government auditing standards and guidance from the Office of 
Management and Budget and the Government Accountability Office. KPMG is 
responsible for the attached management letter dated March 11, 2014, and the 
conclusion expressed in it. 
 
Please call me with any questions, or your staff may contact Sharon Huiswoud, Director, 
Information Systems Audit Division, at (202) 254‐5451. 
 
Attachment 
 
 
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




March 11, 2014


Office of Inspector General,
U.S. Department of Homeland Security, and

Chief Information Officer and Chief Financial Officer,

U.S. Department of Homeland Security Transportation Security Administration

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we
considered internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements. In
conjunction with our audit of the financial statements, we also performed an audit of internal control
over financial reporting in accordance with attestation standards issued by the American Institute of
Certified Public Accountants.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated
December 11, 2013, included internal control deficiencies identified during our audit that, in aggregate,
represented a material weakness in information technology (IT) controls and financial system
functionality at the DHS Department-wide level. This letter represents the separate limited distribution
report mentioned in that report, of matters related to the Transportation Security Administration (TSA).

During our audit we noted certain matters involving internal control and other operational matters that
are presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management and communicated through Notices of
Findings and Recommendations (NFRs), are intended to improve internal control or result in other
operating efficiencies and are summarized as described below.

With respect to TSA’s financial systems’ IT controls, we noted certain matters in the areas of security
management, access controls, and contingency planning. These matters are described in the General IT
Control Findings and Recommendations section of this letter.

The Table of Contents identifies each section of the letter. We have provided a description of key TSA
financial systems and IT infrastructure within the scope of the FY 2013 DHS financial statement audit
in Appendix A, and a listing of each IT NFR communicated to management during our audit in
Appendix B.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
During our audit we noted certain matters involving financial reporting internal controls (comments
not related to IT) and other operational matters, including certain deficiencies in internal control that
we consider to be significant deficiencies and material weaknesses, and communicated them in writing
to management and those charged with governance in our Independent Auditors’ Report and in a
separate letter to the Office of Inspector General and the DHS Chief Financial Officer.

Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all deficiencies in policies or procedures that may exist. We aim, however, to use our knowledge
of DHS’ organization gained during our work to make comments and suggestions that we hope will be
useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.

The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.

Very truly yours,
                                   Department of Homeland Security
                              Information Technology Management Letter

                                 Transportation Security Administration

                                          September 30, 2013


                                      TABLE OF CONTENTS

                                                                                       Page
Objective, Scope, and Approach                                                          2

Summary of Findings                                                                     4

General IT Control Findings and Recommendations                                         5

   Findings                                                                             5

       Security Management                                                              5

       Access Controls                                                                  5

       Contingency Planning                                                             6

   Recommendations                                                                      6

       Security Management                                                              6

       Access Controls                                                                  6

       Contingency Planning                                                             7

IT Application Controls                                                                 7


                                           APPENDICES

Appendix                                       Subject                                 Page
           Description of Key TSA Financial Systems and IT Infrastructure within the     8
   A
           Scope of the FY 2013 DHS Financial Statement Audit

   B       FY 2013 IT Notices of Findings and Recommendations at TSA                    10





                                                  1

                                    Department of Homeland Security
                               Information Technology Management Letter

                                  Transportation Security Administration

                                           September 30, 2013


                              OBJECTIVE, SCOPE, AND APPROACH


Objective

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”). In connection with our audit of the FY 2013 financial statements, we performed an
evaluation of selected general information technology (IT) controls (GITCs) and IT application controls
at the Transportation Security Administration (TSA) to assist in planning and performing our audit
engagement.

Scope

The scope of our GITC and IT application control test work is described in Appendix A, which provides a
description of the key TSA financial systems and IT infrastructure within the scope of the TSA
component of the FY 2013 DHS consolidated financial statement audit.

Approach

General Information Technology Controls

The Federal Information System Controls Audit Manual (FISCAM), issued by the U.S. Government
Accountability Office, formed the basis of our GITC evaluation procedures.

FISCAM was designed to inform financial statement auditors about IT controls and related audit concerns
to assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial statement audit. FISCAM also provides guidance to auditors when considering the scope and
extent of review that generally should be performed when evaluating GITCs and the IT environment of a
Federal agency. FISCAM defines the following five control categories to be essential to the effective
operation of GITCs and the IT environment:

x   Security Management – Controls that provide a framework and continuing cycle of activity for
    managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
    of computer-related security controls.

x   Access Control – Controls that limit or detect access to computer resources (data, programs,
    equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.

x   Configuration Management – Controls that help to prevent unauthorized changes to information
    system resources (software programs and hardware configurations) and provide reasonable assurance
    that systems are configured and operating securely and as intended.

    x   We performed technical information security testing for key TSA network and system devices.
        The technical security testing was performed from within select DHS facilities and focused on
        production devices that directly support DHS’ and TSA’s financial processing and key general
        support systems.

                                                    2

                                    Department of Homeland Security
                               Information Technology Management Letter

                                  Transportation Security Administration

                                           September 30, 2013


x   Segregation of Duties – Controls that constitute policies, procedures, and an organizational structure
    to manage who can control key aspects of computer-related operations.

x   Contingency Planning – Controls that involve procedures for continuing critical operations without
    interruption, or with prompt resumption, when unexpected events occur.

IT Application Controls

We performed testing over selected key IT application controls on financial systems and applications to
assess the financial systems’ internal controls over the input, processing, and output of financial data and
transactions. FISCAM defines application controls as the structure, policies, and procedures that apply to
separate, individual application systems, such as accounts payable, inventory, or payroll.




                                                     3

                                    Department of Homeland Security
                               Information Technology Management Letter

                                  Transportation Security Administration

                                           September 30, 2013


                                      SUMMARY OF FINDINGS

During FY 2012, TSA took corrective action to address certain prior year IT control deficiencies. For
example, TSA made improvements over configuration management controls relative to the scripting
process. However, during FY 2013, we continued to identify GITC deficiencies related to controls over
security management (including deficiencies over physical security and security awareness), access
control, and contingency planning for TSA core financial and feeder systems.

Collectively, the IT control deficiencies limited TSA‘s ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and availability. In
addition, these deficiencies negatively impacted the internal controls over TSA financial reporting and its
operations. In addition, based upon the results of our test work, we noted that TSA contributes to the
Department’s non-compliance with the relevant federal financial management systems requirements of
the Federal Financial Management Improvement Act of 1996.

Of the seven IT Notices of Findings and Recommendations (NFRs) issued during our FY 2013 testing, all
were repeat findings, either partially or in whole from the prior year. The seven IT NFRs issued represent
deficiencies in three of the five FISCAM GITC categories.

The majority of findings resulted from the lack of properly documented, fully designed and implemented,
adequately detailed, and consistently implemented financial system controls to comply with DHS
Sensitive Systems Policy Directive 4300A, Information Technology Security Program, requirements and
National Institute of Standards and Technology (NIST) guidance. Specifically, the findings stem from:

    1. Inadequately designed and ineffective access control policies and procedures relating to the
       management of logical access to financial applications, databases, and support systems;
    2. Insufficient logging of system events and monitoring of audit logs; and
    3. Inconsistently implemented backup management controls.

These deficiencies may increase the risk that the confidentiality, integrity, and availability of system
controls and TSA financial data could be exploited, thereby compromising the integrity of TSA financial
data used by management and reported in TSA’s and DHS’ financial statements.

While the recommendations made by us should be considered by TSA, it is the ultimate responsibility of
TSA management to determine the most appropriate method(s) for addressing the deficiencies identified.




                                                     4

                                    Department of Homeland Security
                               Information Technology Management Letter

                                  Transportation Security Administration

                                           September 30, 2013


               GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS


Findings

During our audit of the FY 2013 DHS financial statements, we identified the following TSA GITC
deficiencies.

Security Management

After-Hours Physical Security Testing

On September 4, 2013, we performed after-hours physical security testing to identify risks related to non-
technical aspects of IT security. These non-technical IT security aspects included physical access to
printed or electronic media, equipment, or credentials residing within a TSA employee’s or contractor’s
work area or shared workspaces which could be used by others to gain unauthorized access to systems
housing financial or other sensitive information. The testing was performed at a TSA facility in Arlington,
Virginia (VA) that processes, maintains, and/or has access to financial data.

We observed 17 instances where passwords, sensitive IT information (such as server names or IP
addresses), keys, unsecured or unlocked external media, and printed materials containing sensitive
Personally Identifiable Information were accessible by individuals without a “need to know”.

Social Engineering

Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
action that is inconsistent with DHS policies, such as divulging sensitive information or allowing /
enabling computer system access. The term typically applies to trickery or deception for the purpose of
information gathering, or gaining computer system access.

On July 11, 2013, we performed social engineering testing from a DHS facility to identify risks related to
TSA personnel awareness of responsibilities for protecting sensitive IT information, including personal
system access credentials, from disclosure to unauthorized personnel. We noted two instances where
individuals divulged their TSA network account password to KPMG auditors.

Access Controls

x   DHS requirements for password complexity were not fully implemented for accounts on the
    Electronic Time Attendance and Scheduling application (eTAS).

x   Audit logs for components of the eTAS environment (including the operating system and database)
    and supporting system software were not consistently reviewed by management, and audit logs for the
    eTAS application do not include activity related to changes to user accounts and associated profiles,
    in accordance with DHS and TSA policy.

x   eTAS account management activities, including enforcement of training requirements,
    implementation of account inactivity controls, authorization of new or modified application access,

                                                    5

                                   Department of Homeland Security
                              Information Technology Management Letter

                                 Transportation Security Administration

                                          September 30, 2013


   and periodic recertification of access, were not consistently or timely documented or implemented in
   accordance with DHS and TSA policy.

Contingency Planning

x	 Restoration testing of backup media over eTAS to ensure integrity and reliability of data was not
   performed.

Recommendations

We recommend that the TSA Office of the Chief Information Officer (OCIO) and Office of the Chief
Financial Officer (OCFO), in coordination with the DHS OCIO and the DHS OCFO, make the following
improvements to TSA‘s financial management systems and associated IT security program.

Security Management

x	 Develop and deliver training and awareness materials to TSA staff and supervisors to address IT
   security policies and procedures related to properly securing sensitive DHS and TSA data within
   physical workspaces, initiate periodic after-hours reviews of TSA workspaces, and implement
   appropriate TSA policies and guidance in addressing identified security violations.

x	 Continue existing implementation of TSA’s IT Security Awareness Training Program, including
   performing periodic internal social engineering testing, delivering individualized training and
   implementing administrative actions, as appropriate, and communicating reminders concerning social
   engineering risks and awareness.

Access Controls

x	 Implement technical controls to ensure that passwords for eTAS accounts are configured in
   accordance with DHS. If necessary and justified by operational and business requirements, ensure
   that documented requests for exceptions from DHS password requirements identify all affected
   accounts subject to deviations from standard control requirements and follow established processes
   for DHS exceptions.

x	 Implement technical and monitoring controls to ensure that eTAS operating system and database audit
   logs include all required auditable events, are being reviewed by management on a periodic basis, are
   documented, and audit log review evidence is maintained in accordance with DHS and TSA
   requirements.

x	 Implement technical controls to enforce DHS and TSA requirements related to implementation of
   account inactivity controls.

x	 Implement monitoring controls over the account management process to ensure that all users are
   granted access to eTAS, including timely completion of required training and documentation of



                                                   6

                                   Department of Homeland Security
                              Information Technology Management Letter

                                 Transportation Security Administration

                                          September 30, 2013


    access authorizations, and that all accounts are recertified no less than annually, in accordance with
    DHS and TSA requirements.

Contingency Planning

x   Perform and document annual testing to ensure the integrity and reliability of eTAS backup media in
    accordance with DHS and TSA requirements and NIST minimum baseline control guidance.


                                   IT APPLICATION CONTROLS

We conducted testing over certain Core Accounting System (CAS), Financial Procurement Desktop
(FPD), and Sunflower application controls supporting in-scope processes during the TSA component of
the FY 2013 DHS financial statement audit and did not identify any control deficiencies.




                                                    7

                      Department of Homeland Security
                 Information Technology Management Letter

                    Transportation Security Administration

                             September 30, 2013




                            Appendix A

Description of Key TSA Financial Systems and IT Infrastructure

within the Scope of the FY 2013 DHS Financial Statement Audit





                                     8

                                                                                            Appendix A

                                   Department of Homeland Security
                              Information Technology Management Letter
                                 Transportation Security Administration
                                          September 30, 2013


Below is a description of significant TSA financial management systems and supporting IT infrastructure
included in the scope of the TSA component of the DHS FY 2013 financial statement audit.

Core Accounting System (CAS)

CAS is the core accounting system that records financial transactions and generates financial statements
for TSA. CAS is hosted at the U.S. Coast Guard Financial Center (FINCEN) in VA. CAS interfaces with
other systems located at the FINCEN, including FPD and Sunflower. CAS is used by financial
management individuals as CAS is the main system of record for financial information. CAS is
comprised of a Hewlett-Packard (HP) UNIX operating system and an Oracle database.

Financial Procurement Desktop (FPD)

The FPD application is used to create and post obligations to the core accounting system. It allows users
to enter funding, create purchase requests, issue procurement documents, perform system administration
responsibilities, and reconcile weekly program element status reports. FPD interfaces with the CAS
system and is hosted at the FINCEN in VA. FPD is comprised of an HP UNIX operating system and an
Oracle database.

Sunflower

Sunflower is a customized third-party commercial off-the-shelf product used for TSA and Federal Air
Marshal Service property management. Sunflower interacts directly with the Office of Finance Fixed
Assets module in CAS and interfaces with the FPD system. Sunflower is hosted at the FINCEN in VA.
Sunflower is comprised of a Red Hat Linux operating system and an Oracle database.

Electronic Time Attendance and Scheduling (eTAS)

eTAS is an automated and standardized labor management solution. The system provides an automated
means to schedule employee work and leave hours, record hours worked and not worked, and provide bi-
weekly time records to TSA’s payroll provider, the National Finance Center. The system automates the
workforce management process to reduce the amount of time, effort, and associated cost required for
entry of data. eTAS is comprised of a Windows 2003 operating system and an Oracle database, and is
located at the DHS Enterprise Data Center in VA. The Office of Human Capital is responsible for eTAS.




                                                   9

                    Department of Homeland Security
               Information Technology Management Letter

                  Transportation Security Administration

                           September 30, 2013




                           Appendix B

FY 2013 IT Notices of Findings and Recommendations at TSA





                                  10

                                                                                                                                                 Appendix B

                                                            Department of Homeland Security
                                                       Information Technology Management Letter

                                                          Transportation Security Administration

                                                                   September 30, 2013


    FY 2013 NFR #                                         NFR Title                                            FISCAM Control Area          New       Repeat
                                                                                                                                            Issue      Issue
    TSA-IT-13-01     Weakness in eTAS user recertification                                                         Access Controls                       X
    TSA-IT-13-02     Weakness in eTAS password complexity                                                          Access Controls                       X
    TSA-IT-13-03     Weakness in eTAS Restoration Testing of Backups                                            Contingency Planning                     X
    TSA-IT-13-04     Weakness in eTAS review of audit logs                                                         Access Controls                       X
    TSA-IT-13-05     eTAS System User Access                                                                       Access Controls                       X
    TSA-IT-13-06     Security Awareness Issues Identified During Social Engineering Testing at TSA              Security Management                     X1
                     Headquarters
    TSA-IT-13-07     Physical Security and Security Awareness Issues Identified During After Hours              Security Management                     X1
                     Testing at TSA Headquarters




1
 FY 2012 NFR TSA-IT-12-01 was split into two findings for FY 2013 to report separately on the results of each set of enhanced information security testing
procedures performed at TSA.

                                                                             11

                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

   
   AppendixA
   ReportDistribution
                          
   DepartmentofHomelandSecurity
   
   Secretary
   DeputySecretary
   ChiefofStaff
   DeputyChiefofStaff
   GeneralCounsel
   ExecutiveSecretary
   Director,GAO/OIGLiaisonOffice
   AssistantSecretaryforOfficeofPolicy
   AssistantSecretaryforOfficeofPublicAffairs
   AssistantSecretaryforOfficeofLegislativeAffairs
   UnderSecretaryforManagement
   ChiefFinancialOfficer
   ChiefInformationOfficer
   ChiefInformationSecurityOfficer
   ChiefPrivacyOfficer
   
   OfficeofManagementandBudget
   
   Chief,HomelandSecurityBranch
   DHSOIGBudgetExaminer
   
   Congress
   
   CongressionalOversightandAppropriationsCommittees,asappropriate




www.oig.dhs.gov                                                             OIG-14-97
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
